<html>
<title> - EXAMINING THE ROLE OF SHARED EMPLOYEES IN THE HOUSE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
          EXAMINING THE ROLE OF SHARED EMPLOYEES IN THE HOUSE

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2018

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 
 


                       Available on the Internet:
                         http://www.govinfo.gov
                         
                         
                         
                               _________ 

                    U.S. GOVERNMENT PUBLISHING OFFICE
                   
 32-657                     WASHINGTON : 2018                               
                         
                         
                         
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia





          EXAMINING THE ROLE OF SHARED EMPLOYEES IN THE HOUSE

                              ----------                              


                        THURSDAY, APRIL 12, 2018

                          House of Representatives,
                         Committee on House Administration,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 11:16 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Comstock, Walker, 
Loudermilk, Brady, Lofgren, and Raskin.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/General Counsel; Cole Felder, Deputy General 
Counsel; Dan Jarrell, Legislative Clerk; Erin McCracken, 
Communications Director; Jamie Fleet, Minority Staff Director; 
Khalil Abboud, Minority Deputy Staff Director; and Eddie 
Flaherty, Minority Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for purposes of today's hearing on shared 
employees. A quorum is present, so we may proceed. The meeting 
record will remain open for 5 legislative days so that Members 
may submit any materials they wish to be included therein.
    My opening remarks will be brief.
    Today's hearing will focus on the practice by which 
multiple member offices share employees to perform 
administrative functions, such as finance or information 
technology services. The practice of sharing employees began in 
the mid to late 1990s and continues today. However, there had 
been concerns about the lack of oversight and supervision 
shared employees have in their duties. The Office of Inspector 
General audited the practice in 2008, and again, in 2012.
    Today's hearing will provide this Committee with the 
opportunity to understand the history of the practice of 
sharing employees. Further, it will allow us the opportunity to 
review the current reporting and disclosure requirements 
imposed on shared employees and determine their effectiveness. 
Finally, the hearing will allow the Committee to understand the 
additional actions the House should take to ensure that all 
risks are addressed.
    I yield to my colleague and the Ranking Member, Mr. Brady, 
for purposes of an opening statement.
    Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman, for holding--and thank 
you for holding this hearing today.
    Mr. Chairman, I have worked on the shared employees issue 
since I became Chairman in 2007. I had hearings on this topic, 
and we marked up new regulations to deal with this issue. I 
also supported the efforts of Chairman Lungren in 2012 to 
measure if what we were doing was working. We have more work to 
do.
    I won't support an overall limit on the number of offices 
that share technology and finance staff that can support. We 
should discuss that limit. I also support a background check as 
a condition of access to the network. We need to explore what 
these background checks measure and what we do with the 
results.
    I am very glad you have asked these witnesses here today. 
We have a fine group of House office in front of us. I consider 
Phil and Paul friends and look forward with our new inspector 
general once I learn how to pronounce your last name.
    I look forward to the testimony, and I yield back the 
balance of my time.
    The Chairman. The gentleman yields back.
    Does any other Member wish to be recognized for the 
purposes of an opening statement?
    Seeing none, we are honored to have yet another 
distinguished panel of witnesses before us, and I will now 
introduce those to the Committee.
    Phil Kiko was sworn in as the Chief Administrative Officer 
of the House of Representatives on August the 1st of 2016. This 
is the second time Mr. Kiko is serving at the CAO. In the mid 
1990s, Mr. Kiko joined the then-newly formed CAO, and his 
associate administrator for procurement and purchasing to help 
establish the procurement office. Mr. Kiko has a long record of 
dedicated service, both in the House and throughout the Federal 
Government.
    Most recently, Mr. Kiko served as staff director and 
general counsel for two House committees, including serving on 
this Committee from 2011 to 2012. Mr. Kiko also has worked in 
two other House committees and served as chief of staff at a 
Member's congressional office.
    I would also like to introduce Paul Irving, our Sergeant-
at-Arms. Paul Irving was sworn in as the Sergeant-at-Arms at 
the U.S. House of Representatives on January the 17th of 2012 
during the second session of the 112th Congress. He is the 36th 
person to hold this post since 1789. Mr. Irving previously 
served as an assistant director of the U.S. Secret Service from 
2001 to 2008 and served as a special agent with the Secret 
Service for 25 years.
    I would now like to introduce Michael Ptasienski, House 
Inspector General. Michael Ptasienski was appointed as the 
fifth inspector general of the United States House of 
Representatives on February the 15th of 2018. Mr. Ptasienski 
previously served in the Office of Inspector General of the 
House as the Deputy Inspector General, advisory and 
administrative services, and as the director, management 
advisory services.
    He has been serving in the House since 2008. Prior to 
joining the House, Mr. Ptasienski spent more than 15 years 
working in consulting and management roles in the financial 
services industry, and has several professional certifications 
in accounting, auditing, risk management, and project 
management.
    Again, I want to thank each of you for being here today 
with us. The Committee has received each of your written 
testimony. At the appropriate time, I will recognize you for 5 
minutes to present a summary of that submission. You know how 
this drill works with the timer that is there.
    We look forward to hearing from each of you. This is a very 
important hearing for us going forward. And the Chair now 
recognizes the Chief Administrative Officer, Phil Kiko, for 5 
minutes.

  STATEMENTS OF HON. PHILIP KIKO, HOUSE CHIEF ADMINISTRATIVE 
  OFFICER, UNITED STATES HOUSE OF REPRESENTATIVES; HON. PAUL 
    IRVING, HOUSE SERGEANT-AT-ARMS, UNITED STATES HOUSE OF 
  REPRESENTATIVES; AND MICHAEL PTASIENSKI, INSPECTOR GENERAL, 
             UNITED STATES HOUSE OF REPRESENTATIVES

                 STATEMENT OF HON. PHILIP KIKO

    Mr. Kiko. Thank you for the opportunity to participate in 
today's hearing. The activity of certain shared employees and 
their technical service is one of the first issues that was 
brought to my attention when I became CAO. The House shared 
employees account for less than 1 percent of the estimated 
10,000 House employees. Collectively, they work for roughly 75 
percent of House offices.
    Unlike the majority of House employees, the oversight 
structure of the technical services they provide is fractured 
and decentralized. Because they are not employees of any House 
officer, we are limited in our ability to take swift corrective 
action when non-compliance with House policies and technical 
standards are detected.
    The problem is simple. Decentralized oversight leads to 
non-compliance and abuse of policies intended to protect the 
House. The solution is slightly more complicated, and one the 
House has been grappling with for the last decade. With that, 
at the direction of the Committee, in February 2017, the House 
officer working group convened, and in June of last year, 
issued a report identifying over 2,000 gaps in the management 
structure, the subsequent risk to the House, and reforms to 
mitigate those risks.
    These gaps, in a broad perspective, relate to supervision 
and oversight of shared employees, or lack thereof, the 
delegation of tasks between shared employees, and the fact that 
they are sharing workloads and have informal supervisory 
agreements regardless of the employing authority. Improper 
vetting of the employees, and perhaps most problematic, the 
inability to enforce compliance with House information security 
policies. For example, the unauthorized assets to office data 
or commingling of data, the use of unsecured software, cloud 
service, email accounts, and equipment.
    Many of these gaps are not necessarily new, but the risks 
associated with the gaps have changed and need to be addressed, 
particularly the risk that impact the House cybersecurity 
efforts. Cyber attacks, as you know, against the House, average 
300 to 500 million each month. And the bookend to the outside 
threat is the insider threat.
    Tremendous efforts are dedicated to protecting the House 
against to these outside threats; however, these efforts are 
undermined when employees do not adhere to and thumb their nose 
at our information security policy. And that is a risk, in my 
opinion, we cannot afford.
    The working group concluded the most effective way to 
mitigate the risk of shared employee was to change the 
employment structure itself. And after the working group 
presented its recommendations, a Committee task force led by 
Representative Davis was created. It hosted multiple bipartisan 
listening sessions with Members on this topic, and I attended 
every one of those meetings. Members expressed a strong desire 
to retain shared employees as some of their duties can involve 
information that is sensitive in nature. However, Members were 
under the impression that, due to the technical nature of the 
duties shared employees, whether IT or financial, underwent a 
more vigorous vetting process, and they were also open to the 
CAO having a more hands-on oversight on compliance with House 
standards.
    With this valuable feedback, a strategy was developed with 
the committee to mitigate risk and significantly modify the 
employment structure. It included the development of strict 
administrative standards for IT and shared financial 
administrators that would standardize the adherence to House 
policies and add additional oversight and compliance measures.
    The CAO would be the centralized oversight entity with 
enforcement capabilities while preserving Member choice in 
hiring. It mirrors the current contractor model in that it 
allows for vetting individuals who will have privileged access 
to the House network, and it creates the ability to immediately 
revoke access for those who comply with House IT and financial 
policies. It doesn't mean they are revoked forever. It is 
revoked until they comply. Critical oversight capabilities that 
Member offices I do not think have the bandwidth to deal with.
    The CAO stands ready to roll up its sleeves with the 
Committee and to close the gaps and greatly use the risks that 
are inherent in the current model.
    Thank you very much.
    [The statement of Mr. Kiko follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
    
    The Chairman. Thank you, Mr. Kiko.
    The Chair will now recognize Sergeant-at-Arms Paul Irving, 
for 5 minutes for the purposes of an opening statement.

                 STATEMENT OF HON. PAUL IRVING

    Mr. Irving. Chairman Harper, Ranking Member Brady, and 
distinguished Members of the Committee, I appreciate the 
opportunity to participate in the Committee's hearing today 
regarding the use of shared employees in the House.
    As you know, the House Sergeant-at-Arms serves as the 
Chamber's principal law enforcement officer. And from this 
perspective, shared employees present unique challenges.
    Shared employees have access to systems, offices, and 
personnel of multiple Members, and can potentially create a 
greater risk than an employee who has access to only one 
office's systems. Shared employees may also have access to 
sensitive information technology or financial records.
    As the House of Representatives has moved towards greater 
automation and increased use of digital technology, the 
vulnerabilities and risks have likewise increased. The risks 
posed by shared employees can be minimized by requiring 
background checks as well as robust internal controls. I would 
also recommend that shared employees be issued different ID 
cards.
    Because of the greater risk of shared employees, it is 
critical that a shared employee be thoroughly vetted by the 
offices. However, Members are generally free to set the terms 
and condition of employment in their office. When an employee 
works for a single Member office, the Member can monitor the 
individual's performance and determine the level of trust and 
responsibility that should be vested in that individual. In 
certain respects, the Member assumes the risks of hiring the 
individual.
    When an employee is shared among many Member offices, each 
Member is not as closely situated to monitor the individual's 
performance. The relationship between the Member and staffer is 
more attenuated, and knowledge about the employee's background 
is minimal. Thus, each Member potentially faces greater risk 
from the individuals who have access to sensitive information, 
technology, or financial data, as the Member is not as well 
positioned to vet or closely monitor the activities of the 
employee.
    Currently, the Capitol Police provides criminal background 
checks for Members' offices upon request. When developing a 
policy concerning background checks, the Committee may wish to 
adopt or consider the scope, frequency of the investigation, 
and the adjudication or background of the background check.
    Background checks are not a panacea, but they can serve as 
indicators that an individual is trustworthy or, conversely, 
potentially susceptibility to influences that could have 
negative repercussions for the entire House.
    In addition to developing a uniform standard for background 
checks, it is also essential that there be uniformity in 
oversight as well as the institution of internal controls to 
ensure that all shared employees strictly adhere to the 
policies and procedures related to this unique position.
    The CAO has put together a strategy for developing internal 
controls and ensuring the maintenance and uniformity of 
standards of shared employee conduct. I would support these 
recommendations by the CAO regarding the continued development 
and enforcement of these procedures.
    I would also encourage all House offices to require strict 
adherence to the established standards as a condition of 
employment. Should an employee fail to comply with these 
standards, I fully support the CAO being granted the authority 
to revoke a shared employee's access to the House network.
    One final area that can be leveraged to tighten security of 
shared employees is to provide a slightly different ID card to 
shared employees. Currently, ID cards are issued under one 
office, while a shared employee may work for many offices. 
Capitol Police officers can have difficulty identifying 
appropriate access when an individual's ID differs from the 
office in which they are working. If an ID card clearly denotes 
the employee of the shared staff, the officer can easily 
recognize that the individual might require further follow-up.
    In sum, I want to thank the Committee for giving me the 
opportunity to testify today, and I am ready to answer any 
questions you may have.
    Thank you.
    [The statement of Mr. Irving follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    The Chairman. Thank you, Mr. Irving.
    The Chair will now recognize our House Inspector General, 
Michael Ptasienski, for 5 minutes.

                STATEMENT OF MICHAEL PTASIENSKI

    Mr. Ptasienski. Thank you Chairman Harper, Ranking Member 
Brady, and Members of the Committee. I am honored to be here 
today in my capacity as Inspector General of the House.
    My testimony today concerns two areas of shared employees: 
financial administrators and shared IT support staff.
    Shared employees fill administrative and technical support 
roles for both Member offices and Committees through part-time 
positions. This model allows congressional offices to get the 
back office help they need without having to hire full-time 
staff. It does, however, introduce some significant risks.
    Since 2007, we have conducted a considerable amount of work 
that has highlighted risks associated with these types of 
shared employees. Specifically, we identified risks associated 
with inadequate management oversight of shared employee 
activities, a lack of segregation of duties within offices, and 
shared employee non-compliance with applicable laws and House 
rules.
    A particular concern is the role of the IT administrator. 
By its very nature, this role is highly sensitive and carries 
with it a whole host of risks.
    The Office of Inspector General first noted risks 
associated with the shared employees in 2007 after a financial 
shared employee was able to defraud three Member offices for 
over $169,000. In this case, an employee had the authority to 
make purchases and controlled where items were delivered. In 
addition, they completed, approved, submitted, and--submitted 
vouchers for reimbursement. The same staffer also reviewed the 
office monthly financials and maintained all the office 
records.
    This highlights a lack of segregation of duties. One 
employee should never have the ability to order items, receive 
the items, pay invoices, submit their own reimbursements, and 
reconcile the books.
    Some shared employees may be on the payroll for as many as 
20 offices. In addition, there have been cases where shared 
employees worked together in teaming relationships. These teams 
collectively handled the work of multiple offices. As a result, 
individuals may be performing duties for an office while being 
neither a paid employee or contractor for that Member.
    In 2008, the CHA adopted Resolution 110-7 and subsequently 
published the shared employee manual in 2009, which placed 
specific limitations on shared employees that were based upon 
employment laws, House rules, and CHA's policies. This manual 
outlined several new requirements, including having shared 
employees sign an acknowledgment that they understood and would 
comply with the applicable rules and guidelines.
    Not all shared employees, however, have been complying with 
these requirements. During a follow-up audit in 2012, we found 
that 45 percent of shared employees had not signed the required 
acknowledgment for understanding and complying with the manual. 
In addition, some shared employees continued to work as both an 
employee of the House, and as a contractor. And as recently as 
2016, we found shared employee teaming relationships still 
exist.
    In any office, the system administrator is someone you 
place a great deal of trust in. This role is inherently risky 
due to the level of system access they have. They essentially 
hold the keys to the kingdom, they can create accounts, grant 
access, view, download, update, and delete virtually any 
information within the office. Because of this high-level 
access, an incompetent or rogue system administrator could 
conflict considerable damage to an office and potentially 
disclose sensitive information, grant access to others, perform 
updates, or simply delete files.
    In the case of shared employees, this high level access 
spans multiple offices. We have seen that shared employees 
typically have a great deal of autonomy in conducting their 
work. In the case of IT administrators, they are generally an 
office's sole IT subject matter expert, and others may not have 
complete insight into the actions that they perform.
    The existence of shared employee teaming relationships 
further increases the risk of having individuals who are not 
officially employed by a Member having access to their systems 
and data without the Member's knowledge.
    Mr. Chairman, I thank you, Ranking Member Brady, and the 
Members of the Committee for this opportunity to highlight some 
of the risk and control weaknesses we have noted in the current 
shared employee model.
    We look forward to continuing to provide advice to this 
Committee on issues of importance to the House.
    At this time, I would be happy to any answer questions you 
have.
    The Chairman. Thank you, Mr. Ptasienski.
    [The statement of Mr. Ptasienski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. We now have time for Committee Members to ask 
questions of each of you. Each Member is allotted 5 minutes to 
question the witnesses.
    I will begin by recognizing myself for 5 minutes.
    Mr. Kiko, I have a couple questions I would like to direct 
to you.
    The House officer working group identified and the 
listening sessions confirmed the importance of protecting 
Member choice as it relates to certain services needed by 
Member offices.
    In your opinion, how do we effectively mitigate the risk to 
the House that were identified in your June 30 memo and 
addressed in the working group's recommendations, while at the 
same time, continuing to recognize Members' employing 
authority? And are those two goals mutually exclusive of each 
other?
    Mr. Kiko. No, I don't think they are. And what really came 
out of the working sessions--or the Member sessions headed by 
Congressman Davis was the fact that Members were very 
interested in having some choice. I certainly understand that. 
So what we sort of are thinking about is that the Members can 
hire shared employees. But the shared employees have to--the 
other thing that came out of that was that there was some 
understanding that maybe some of the employees were technically 
adept. They were required to follow all the House procedures 
and standards. So what we sort of thought we could do as--the 
CAO could establish standards for IT and financial services 
that everybody would have to adhere to. Then we would--and it 
would be standard. It would be the same for everybody. We would 
have standard compliance with regards so we could check to make 
sure that everybody's complying with what these standards are.
    And then on the other side of the ledger, the Members would 
be able to hire who they wanted. But as part of those 
employee's performance standards, maybe there could be 
something in there that say they have comply, you know, with 
House policies. And then if they wouldn't, we could deny 
access, or we could tell the Member about it or elevate it to 
the Committee. But I think that is the way you can have it both 
ways.
    The Chairman. Okay. On January 19th of 2018, Ranking Member 
Mr. Brady wrote to me highlighting a number of steps he 
believes can be implemented immediately to mitigate some of the 
risk.
    Have you discussed these suggestions with HIR? And how do 
these steps fit in with the recommendations identified in your 
June 30, 2017 memo?
    Mr. Kiko. I think a lot of those--in Mr. Brady's letter, I 
think of lot of those can be. Almost every one of them--all of 
them can be implemented. The one issue that we would have to 
work on a little bit is, you know, having a separate email 
for--every shared employee has a separate email account, and 
how would they email that, where would it go to? Would it--how 
do you separate it? Would it go into one server, or could it be 
disaggregated? We don't know.
    But all those are fine. We agree with all those, and we can 
implement all of them.
    The Chairman. And I am sure other Members will ask about 
this as well. But for you, Mr. Kiko, and for you, Mr. Irving, 
how important and how effective will the background checks be 
that you anticipate having?
    Mr. Irving may be the one to answer that.
    Mr. Irving. The background check, as I testified, is not a 
panacea, but certainly important as a vetting process to 
determine, you know, who would be most suitable to work on our 
sensitive systems.
    Background checks take on a number of forms. Capitol Police 
will start off with an NCIC check, criminal history check, a 
credit check.
    I would recommend that we explore a little deeper level of 
check as well, to maybe former employers to see if there were 
any anomalies, especially if it was on the financial side or IT 
side.
    Not only--I wouldn't just focus on the background--the 
background check, but the adjudication of the check is 
important. Who actually is going to determine whether the 
employee is suitable. And we need to, I think, put some 
objective measure into that.
    And then last but not least, probably a check every 5 to 7 
years or so just to make sure that we check to see if the 
employee has had any issues, you know, since employment.
    The Chairman. Thank you, Mr. Irving.
    The Chair will now recognize Ranking Member Mr. Brady for 5 
minutes for purposes of questions.
    Mr. Brady. Thank you Mr. Chairman.
    My question is for all or anyone who would like to answer.
    One of the ideas that I won't support is limiting the 
number of offices that shared technology and finance staff 
support. However, if you impose this limit on the overall 
number, you are going to raise the cost of the services 
provided to each office. So my question for all of you is do 
you support limiting the overall number of offices shared 
technology and finance staff can work for? And do you think 
there is a way we can help those offices that would experience 
an increase in cost, absorb that cost as we transition to this 
model?
    Anyone.
    Mr. Kiko. I support limiting the number of offices shared 
employees can support. Limits reduce the risk and the problem 
of diffused supervision. Where you set the limit is the hard 
question. Is it 10? Is it 20? Is it 5?
    I do think that that the CAO can maybe help with that 
transition in a couple of ways. One is on the financial side. 
There are two initiatives that we are going to do that may 
work, and maybe e-voucher or something that replaces the 
existing scan paper. And the other is maybe if we launch a new 
financial portal to get offices more information, you know, 
that they could--there wouldn't be the need right now. A lot of 
the financial processes are very paper-intensive. We are trying 
to eliminate that.
    But the issue of limiting offices I think is the--is how do 
you do that, and where do you draw the line on limiting the 
number of offices for shared employees? I don't know where that 
is. There has been as many as 20, 30. So that is all I have.
    On the IT side, I think that, you know, in the end, it 
would be great if the CAO would provide services, that you 
wouldn't need shared employees for IT services. We sort of hope 
that we would be able to do that in the future. I am not sure 
we are there yet, but we are trying to head that way.
    Mr. Brady. Mr. Irving.
    Mr. Irving. Not to place more of a burden on my esteemed 
colleague, Mr. Kiko, but certainly, some of this can be 
centrally managed. When we look at IT systems, I think a lot of 
that--those are services that the House offers, and I think 
that some of those services can be centrally managed which 
would, in fact, cut down on the number of shared employees.
    Mr. Brady. Thank you.
    Do we know how many--how many average--do shared 
employees--how many Congresspeople that they work for? I mean, 
is there an average that they work for 30? 20? 10? I mean, do 
they vary?
    Mr. Kiko. I don't really know. I don't know that answer at 
this point. I think there are some that are more and there are 
some that are very few. But I don't have the exact answer right 
now. I should have, but----
    Mr. Brady. It is hard to imagine that they work for, like, 
20 and 15 Congresspeople and do an effective job. I mean----
    Mr. Kiko. Yeah. I think it sort of depends up each 
individual offices, what are they doing and how much is being 
required of each office. That is what I don't know.
    Mr. Brady. Well, again, Mr. Kiko, for you--this question is 
for you. I think that you are doing an excellent job as our 
CAO. And do you have an estimate of how much money it would 
cost for your office to support the technology functions that 
shared employees and vendors currently provide our office?
    Mr. Kiko. Well, I sort of looked into that a little bit, 
and I sort of believe that--we estimate that it would cost 
about $125,000 for 10 offices. So that is about 12,000. If we 
would--we would have an employee in HIR, they would support 10 
offices. And so that would be about 12,500 or 13,000, 14,000 
annually. So that is what we would think it would be if we 
would support it ourselves.
    Mr. Brady. Thank you.
    Thank you, Mr. Chairman. And thank all of you. And I am 
very happy and proud to work with all of you. You do an 
excellent job.
    Thank you.
    The Chairman. Thank you, Mr. Brady.
    The Chair will now recognize the Vice Chairman of the 
Committee, the gentleman from Illinois, Mr. Davis, for 5 
minutes.
    Mr. Davis. Thank you, Mr. Chairman, and thank you to each 
of the witnesses. I appreciate, Mr. Chairman, you tasking us 
with running the listening sessions that were bipartisan 
listening sessions. We had Members come in, Members who had 
shared employees, Members who were just concerned about the 
process, to get to know a little better about what these 
processes were. And I think Mr. Kiko laid out very effectively 
in his opening statement some of the concerns that Members had, 
and also, some of the perceptions Members had of possible 
background checks and other details that they thought may have 
been run through your office, the CAO, but in reality, they 
weren't done. So that is what gets me to my first question.
    Mr. Kiko, you mentioned a number of compliance mechanisms 
that were suggested during those Member listening sessions and 
afterwards to help mitigate the risk of shared employees. And 
these suggestions included a badging authority through the 
Sergeant-at-Arms. And thank you, Mr. Irving, for mentioning 
that in your opening statement too. CAO developed committee-
approved technology administration standards and financial 
administration standards; CAO control access to all enterprise 
systems; enforcement of new standards through the CAO 
controlled access to enterprise systems; CAO authority to 
terminate access for any shared IT or finance employee who is 
non-compliant with standards that currently exist; background 
checks, although at differing levels, as mentioned by Mr. 
Irving, for all IT and finance shared employees.
    Would you describe, Mr. Kiko, how these implement--how 
these mechanisms could be implemented and enforced?
    Mr. Kiko. Well, I think that--I think the first thing we 
have to do is to standardize, you know, what are the 
requirements for shared employees, whether it is IT or 
financial. And those standards should be high. It should be, 
you know, what is the normal industry standard for this kind of 
a function. Obviously, you have to apply it to the House.
    And with regards to--and then there has to be a monitoring 
mechanism that the CAO would have to do. They could do spot 
checks on compliance. We are not talking about spot checks on 
getting into Member emails and stuff. We are just trying to see 
are they complying--you know, maybe every month. Are they 
complying with whatever the standards that we set, and the 
expectations that we set? And then if people are not, then we 
either give them a warning that they need to--they need to come 
into compliance. If they don't, we deny access or we elevate 
it.
    Some of that stuff could be worked out with the Committee 
on what you want. I would say that is how you would implement 
it. It would require--it may require, you know, one employee, 
or two in the CAO's office, to make sure, you know, that 
everything is being done correctly.
    Mr. Davis. I see a few of your employees sitting behind 
you.
    Do you feel that the CAO has the ability to implement these 
suggested changes?
    Mr. Kiko. Yes, I do. Yeah.
    And I tried to limit the number of people that came here.
    Mr. Davis. Well, you brought--Clocker was one too many. But 
that is okay.
    Mr. Irving, I am very glad you mentioned the single badging 
authority. Can you expand somewhat on how you think that might 
help address some of the IG considerations that have been 
brought up before?
    Mr. Irving. It would just be one facet. When individual 
Members hire, their badge indicates where they are assigned or 
what Member they are employed by. A shared employee that has 
access to many Member offices is in a different category. And 
if a Capitol Police officer sees them in one area versus 
another, if someone questions them, not knowing that they are a 
shared employee could cause them to not follow up when they 
probably should follow up.
    So only one other area of--just another facet. Certainly 
not in and of itself, something that is going to satisfy 
everything.
    Mr. Davis. Great. Thank you.
    One last question, Mr. Kiko. When we had our Member 
listening sessions, we talked about the lack of a compliance, 
complete compliance for the background and financial disclosure 
information and compliance measures that shared employees--the 
compliance rate they were at before the listening sessions. 
After you sent out some correspondence to the existing shared 
employees, what is the compliance rate right now for the 
disclosures and other information that we are requiring of them 
already?
    Mr. Kiko. You mean on the financial disclosure?
    Mr. Davis. The financial disclosures.
    Mr. Kiko. I am not exactly sure what that is, because we 
did follow up. But that is more of an Ethics Committee issue.
    Mr. Davis. Well, what about the information that you had?
    Mr. Kiko. The information that we had is that, you know, 
most people are now in compliance, if not all. And I have had 
to send some emails out to people. Either you are going to get 
in compliance or we are going to cut you off. I did have one of 
those.
    Mr. Davis. And you saw a great response to that of those 
who may not have been compliant?
    Mr. Kiko. We are okay on this now.
    Mr. Davis. Thank you.
    The Chairman. The gentleman yields back.
    And I would like to give a thank you to Rodney Davis as our 
Vice Chairman who has done yeoman's work and countless hours of 
working with--I know with each of you and working on this 
issue. So, Mr. Davis, we thank you for that outstanding work 
that I know we will bring to a conclusion at some point. And 
you will probably be happy when that happens. But we couldn't 
be in this position for the good of the House without your 
effort, so we appreciate it.
    The Chair will now recognize the gentlewoman from 
California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Well, thank you very much. And thanks to each 
of you for your important testimony. And to you, Mr. Chairman 
and Mr. Brady, for convening this important hearing.
    I think it is important to make a distinction between the 
kinds of shared employees that we have. There are technical 
shared employees that go from office to office, and they are 
primarily doing financial accounting work and IT work. And then 
there are, like, policy shared employees where the shared 
employee is actually moved around the payroll, but it is really 
for a shared policy goal. For example, you know, the 
Progressive Caucus or the Freedom Caucus might share the 
expense of a salary. Or State delegations have--you know, share 
the expense of a salary.
    In 1995, it used to be, prior to 1995, that you could 
just--each office could contribute and just hire the person 
rather than going through this roll-around. I am not sure that 
what we did made any sense, honestly. It just increased the 
paperwork when it comes to policy issues. And that might be 
something to look at, Mr. Chairman.
    But when it comes to the shared employees who are doing IT 
work or financial services, that is where we have the problem. 
And I think it is important to make that distinction. Other 
Members have raised important issues relative to financial 
services.
    I wanted to focus on the IT function. You know, for years, 
on a bipartisan basis, we have worked, Mr. Kiko, with your 
office, centralized services, ranging from magazine 
subscriptions to cybersecurity. It really doesn't make sense to 
have individual offices go out and buy their own furniture. We 
centralized that function. And so one of the concerns and, 
frankly, one of the complaints I have heard, and I suspect it 
is a resource issue for you, is that the CAO can be slow to 
support products that our consumers have moved to. And when 
that happens, Members and staff start using these products 
anyway. And then they circumvent security rules and 
regulations, because that is the product that they find useful.
    And so I am wondering what HIR is doing to keep current 
with the latest tools available in the market? How do you 
identify those tools? Assess their security vulnerabilities, 
train your support staff to help with them? What role does HIR 
currently play in minimizing the risks that the status quo 
poses to the House, understanding that Members are going to 
move to new technology, and is that a resource issue for you?
    Mr. Kiko. Well, we are constantly--we try to be on the 
cutting edge of new technology that Members are using. Many 
times a Member office will ask us about a new technology, and 
then we try to vet it. We try to see where the security issues 
are, you know, whether there is any problems, whether problems 
have been identified, you know, in the private sector when they 
have used stuff.
    I have not checked to see whether this is a resource issue. 
But I know it is a very big problem, because, you know, we have 
all these technologies that Members would like to use. And then 
we read in the paper or we hear, you know, from some of our, 
you know, investigations and research that we do that there is 
a problem, you know, and stuff that has to be patched and all 
that, so--but it is a constant issue of, as you say, Members 
want the--some Members want the best and the latest. And 
sometimes stuff is vetted. If we find out that stuff isn't 
vetted correctly, we try to hurry up and try to do it to make 
sure there is not a problem, you know, with a whole----
    Ms. Lofgren. Right.
    Let me ask you this: When you hire HIR staff, I think you 
examine their professional credentials, their certifications, 
their training for the function you are hiring them to perform.
    Mr. Kiko. Yeah. It is very rigorous.
    Ms. Lofgren. And by the way, I think the IT staff I have 
interfaced with are excellent. They do a good job.
    Now, when Member offices hire shared IT staff, are they 
required to meet the same training and certification that your 
own staff is?
    Mr. Kiko. There is not a requirement for Members' offices, 
because they are the employing authority.
    Ms. Lofgren. Right. Maybe we should look at making those 
certifications a requirement if you are going to access the 
system.
    Mr. Kiko. I support that.
    Ms. Lofgren. I am also interested in terms of shared IT 
staff. There is a concern that they don't always implement 
necessary upgrades or modifications or software patches.
    Does HIR staff ever perform those duties if a shared IT 
staff drops the ball to protect our system?
    Mr. Kiko. Yeah, we do. And we are, for the most part, 
responsible for that. But if a shared IT employee calls us, we 
will do it. It happens frequently.
    Ms. Lofgren. I see my time has expired.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Ms. Lofgren.
    The Chair will now recognize the gentlewoman from Virginia, 
Mrs. Comstock, for 5 minutes.
    Mrs. Comstock. Thank you. And I thank the Chairman and the 
Vice Chairman for the work they have done on your going through 
and finding out the holes in the policies and you all working 
with that. So I really appreciate that in going forward.
    And I know, you know, the public is rightfully, you know, 
very upset about how this was handled in the past and that this 
egregious example that is now being criminally investigated was 
allowed to occur. And I know, because of the criminal 
investigation, you aren't allowed to talk about that. But could 
you just address, you know, for public purposes, that as that 
criminal case goes forward and as that is resolved, that any 
additional suggestions or changes that might be apparent 
through what we learn from now can be addressed and making sure 
that whatever holes they were allowed to get through, I think 
it seems like we have identified a lot of them from what we 
know, but given that is still going forward, and we don't know 
everything, could you just assure for the public that that will 
be sort of an ongoing review when that is wrapped up?
    Mr. Irving. Congresswoman, I think everything that we have 
discussed today and the purpose of this hearing certainly is to 
get us there. And I will tell you that I am very, very 
confident that the CAO is putting measures in place and doing 
everything he can to put measures in place with the support of 
this Committee to mitigate some of those issues that caused us 
to be where we are today.
    So, no, I am confident that we are certainly making a lot 
of progress. Ultimately, as you know, it is the balance between 
the Member interest and the governmental interest, the House 
interest, in really trying to come to a good place.
    So I think we have accomplished a lot, even in the time 
during which this investigation has been ongoing.
    And with that, I will ask Mr. Kiko if he wants to follow 
up. But I hope that satisfies you.
    Mr. Kiko. No. I will just say that the abuses by certain 
shared employees have provided the CAO, and I think the 
Committee, with a roadmap on what needs to be closed. And that 
is what I want to do is to close the gaps.
    Mrs. Comstock. All right. No, and I appreciate that--you 
know, to the extent that that roadmap is public now, that you 
have been able to address that and just wanted to make sure, as 
we get more information, you know, that may not apparent at 
this point, that we can follow up on that.
    So I thank you for the work you are doing on that front.
    And I yield back.
    The Chairman. The gentlewoman yields back.
    The Chair will now recognize Mr. Raskin for 5 minutes.
    Mr. Raskin. Mr. Chairman, thank you very much, and thanks 
to all of our distinguished witnesses today. All of you have 
discussed different risks that the current situation presents 
to the House, including risks involving oversight, 
cybersecurity, physical security, money, and so on.
    Do you believe that your offices have sufficient authority 
now under existing House rules to address those risks, or does 
the Committee need to consider providing additional authority 
to you in order to deal with it?
    And maybe we just go right down the line.
    Mr. Kiko. I would just say that, you know, we are in the 
process of working with the Committee to reduce the risk by 
giving the CAO a little more oversight authority over abuses. 
Now, this is just for the CAO purposes. And I think that if we 
have more authority and we can, you know, set standards, do 
compliance, I think that will greatly reduce the risk in 
cooperation with the Member and working with the Committee. 
Because right now, we don't really--because these are Member 
employees and we don't have a lot of authority to deal with 
that, and it just hasn't happened, even though we found about 
how the abuses can be--how the weak spots can be exploited, we 
think that will go a long ways.
    Mr. Raskin. Let me just follow up quickly with you, then.
    Would it make sense--obviously, what we have got, you know, 
cherished traditions of Member autonomy and some constitutional 
background to that with the speech and debate clause, but would 
it make sense for us to generate more authority in your office 
or in some constellation of these offices, to deal with shared 
employees on the theory that if a Member wants to go outside of 
the usual situation of having an employee reporting directly to 
her?
    Mr. Kiko. I mean, I wouldn't be opposed to that. That is 
sort of a fine line, you know, between CAO and Member autonomy. 
But I am in favor of exploring that. I think it would help.
    Mr. Raskin. Mr. Irving.
    Mr. Irving. I am certainly in agreement with the CAO. I 
think that, as I alluded to earlier, when the governmental 
interest is so heavy and when we get to cybersecurity, we 
really have a governmental interest. We certainly have to 
recognize the Member interest as well. But I am in favor of 
giving the CAO those--the authority so that, for example, to 
Congresswoman Lofgren's point earlier on standards, maybe we 
need to make sure that even though the Member is the employing 
authority, if they want to bring someone on to do IT, for 
example, they should comply with certain standards, have 
certain background. And the same with the internal controls. I 
think the CAO needs every internal control available to him or 
her to ensure that these employees are, in fact, complying with 
rules and regulations, and then have the authority, certainly, 
to take certain action even though they are employed by a 
Member. And I know it is a very, very careful balance.
    Mr. Kiko. I don't want anybody to get the impression I am 
trying to grab more authority. I am trying to grab more power. 
That is not the case here. I am just trying to walk a very fine 
line in conjunction with the Committee to see, you know, where 
that sweet spot is. That is what I am trying to do.
    Mr. Raskin. Great. Thank you.
    Mr. Ptasienski. I think the--as the Chief Administrative 
Officer said, I think they are the primary organization looking 
at--or monitoring compliance with a lot of these finance and 
technology policies. And as such, they have got a tough job in 
trying to enforce those. And I think if there is--if he can't, 
and his folks, as they interact with offices, get people to 
comply with those policies, if he needs a stick, he may need a 
stick in some areas, and we would support that.
    We put a lot of pressure as we make recommendations to the 
CAO to fix the various issues and so forth. And I have full 
appreciation for the tough job that they have in balancing some 
of the particularities of here working in the House.
    Mr. Raskin. Thank you very much.
    I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from North 
Carolina, Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you Mr. Chairman.
    My time is centered basically around one area regarding the 
working group. And I wanted to get your thoughts on that, both 
to Mr. Kiko and Mr. Irving, on the--briefly, you have described 
the objectives of the working group, how it conducted its work. 
And I know it has reached, I believe, six conclusions.
    Could you talk about how that factors into your 
recommendations?
    Mr. Kiko, let's start with you.
    Mr. Kiko. Yeah. I think that on our recommendations we 
initially had said that we--you know, we went through all the 
abuses. We went through previous IG reports. The IG was part of 
the working group, and we initially had recommended an 
independent contractor model rather than--you know, as a way to 
preserve--as a way that we could better--feel better served, 
close the gaps with regards to risks.
    You know, we have CMS services in the House. Some of them 
are employees that work for them, and they also provide IT 
services. We use that model because we have a direct 
relationship with the contractor, and if somebody's not working 
out, then we call the contractor and we cut it off.
    But when we started the--you know, we met with Mr. Davis' 
group, there was concerns about that model. And so we decided 
to do the model that I just described where we would work in 
conjunction with Members' offices.
    Does that make sense?
    Mr. Walker. Yes.
    Mr. Irving. And I will certainly agree with Mr. Kiko. 
Initially, our view was how do you put as much control, 
internal control and control over access to sensitive networks. 
So, you know, myopically we can say, well, we should just 
control the employee, but knowing that Members do want to hire 
some of their own people, we had to work with that and 
recognize that and appreciate that.
    And I think we are in a good spot where we have--we are 
able to satisfy both concerns, which is ensure that our 
internal controls are safe, internal mechanisms for 
cybersecurity, but also allow Members the ability to continue 
to let Members, you know, hire people that they feel 
comfortable with.
    The key is just ensuring that we have those internal 
controls, and sticking to them and that Members respect the 
CAO's authority to, you know, to--in a sense, discipline 
employees that may not be abiding by the rules.
    Mr. Walker. So, Mr. Irving, do you put more emphasis on the 
discipline in the internal controls, or do you place more 
emphasis--and Mr. Kiko can respond to this as well--on reducing 
the overall amount of privileged or shared employees? What is 
your ultimate recommendation?
    Mr. Irving. I would turn this over to Mr. Kiko, but my 
comment is, I would have as few people have access to those 
sensitive networks as possible. That is first and foremost. But 
some will need to, certainly depending on the Member and the 
committee they are on, et cetera. So those I would make sure 
that Mr. Kiko has the authority to ensure that those internal 
controls are met.
    But I don't know, Phil, if you wanted to elaborate on that.
    Mr. Kiko. I mean, I would just like there--from my 
perspective, there be a justification for the access that we 
are supposed to have. I am not necessarily trying to have 
limits, you know, at least on privileged access.
    You know, people, other than shared employees have access. 
I just think there needs to be a good justification for what 
access there is, and also that they comply with whatever 
standards that we have. I am not really trying to grind them 
down into not--you know, into a number.
    Mr. Walker. That is fair. Fair argument.
    Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentleman from Georgia, 
Mr. Loudermilk, for 5 minutes.
    Mr. Loudermilk. I thank you, Mr. Chairman.
    I appreciate the panel being here. I am a little confused 
though. Again, a guy with a military background, I am sitting 
here looking, Mr. Kiko is a chief, Paul is a sergeant, and you 
are a general. So I am not sure which one outranks who here.
    But, hey, I appreciate the work that has been done here 
because this is an issue of grave concern, but also it is a 
balancing act. Because I think, as several Members have 
expressed, one of the strengths of our--this legislative body 
is the autonomy of each individual office, as compared to when 
I was in the State legislature.
    Our staff was appointed to us, the limited staff we had. 
The Speaker of the House actually controlled who our employees 
were, and it really limited the autonomy you have. And I think 
that is one of the strengths that we have here is we are able 
to actually operate as our own entity without due influence--
undue influence from the outside entities or leadership.
    However, that strength also becomes a weakness when it 
comes to the finances, and particularly IT. And as the 
gentlelady from California spoke about, you know, policy not so 
much a concern other than the access to the IT resources. So I 
have, in the last few days, tried to strike where is that 
balance?
    On the IT side specifically, I had a couple questions, and 
I kind of like the direction that we are going. I spoke to Mr. 
Davis yesterday about what Mr. Kiko had defined earlier as a 
direction we may be going.
    One of the--we brought up certification. You know, from an 
IT perspective, I can appreciate that. I think it is important 
that, you know, who you hire does know what they are doing, or 
maybe from the accounting and the finance side requiring a 
licensing or a certification, you know.
    But still, that is more of a job performance aspect to me 
is that you--and being in the IT field, I am going to be able 
to decipher whether you really know what you are doing or not. 
My concern comes to the cybersecurity side and nondisclosure.
    When we share employees, there is also an aspect to the 
autonomy is, I don't want that shared employee sharing with 
other offices what is going on with my office as well as 
disclosing to some entity privacy information.
    Do we have or have we considered a confidentiality 
nondisclosure agreement that each of these shared employees 
have to sign, or some training to go through that spells out 
the penalties that--especially if they disclose, you know, 
information that we have on constituents or information we are 
working on.
    And I will open that up to anyone. Is that something we 
have, or is that something that has been discussed?
    Mr. Kiko. Well, I know we have a shared employee manual, 
and it requires nondisclosure. And so when the--you know, that 
is a requirement to be a shared employee that you are not 
supposed to disclose other Members' information. That is 
already a requirement that the Committee, at the request of the 
IG, had done and it is already in.
    I don't know if there is a--they have to sign off that they 
received and they are going to comply with everything that is 
in the shared employee manual, but that is in that manual now. 
It is not a specific letter, but that is part of the manual as 
we----
    Mr. Loudermilk. Does that spell out what penalties are, 
i.e., you can go to jail?
    Mr. Kiko. There aren't any penalties.
    Mr. Loudermilk. Is that something that maybe we should look 
at?
    Mr. Kiko. Well, the only penalty would be termination, but 
perhaps. I am willing to pursue that, whatever the Committee 
would want to do.
    Mr. Loudermilk. Mr. Irving.
    Mr. Irving. I think that goes along--Congressman, it is an 
excellent theme for some of the prior questions in terms of 
what can we do to enhance our internal controls and our policy. 
I think that is certainly one that I would endorse that we need 
to strengthen.
    Mr. Loudermilk. Okay. I appreciate that.
    One other question, wherever we get to with this, is this 
something that we would look at doing a new Member orientation 
to make sure that every new Member that is coming in is fully 
aware of the rules and responsibilities not only of the shared 
employee, but their requirements as well? That may be something 
for a staffer.
    Mr. Kiko. We would be willing to have that as part--and 
participate if that is what the committee wanted to do.
    Mr. Loudermilk. Okay. I yield back.
    The Chairman. The gentleman yields back.
    I will recognize Mr. Davis for a follow-up remark.
    Mr. Davis. Mr. Kiko, once again--actually, I am glad my 
colleague Mr. Loudermilk brought up compliance and 
nondisclosure.
    Now, when we had our Member listening sessions, we did 
discuss--and hopefully, as a plan of action moving forward, we 
might be able to implement some penalties for noncompliance up 
to termination for noncompliance.
    Do you think that would be easier to administer under the 
current shared employee rules and regulations, or under maybe 
some of the proposed changes we talked about today, running 
those compliance measures through the CAO, Sergeant-at-Arms, 
and House Administration?
    Mr. Kiko. I mean, I think we should take a look at that. I 
think that however we can make compliance easier we should do. 
I don't--I think termination now, it is the shared employee, it 
is the Member's responsibility to terminate. And it still will 
be, but----
    Mr. Davis. It will still be the Member's responsibility to 
terminate, but you would be able to, hypothetically, under the 
possible proposed guidelines, be able to revoke ID badges?
    Mr. Kiko. Yes, we can revoke everything and then they can 
still be employed, but it would be a much different role.
    Mr. Davis. Yeah.
    Mr. Kiko. And you could give the Committee some more 
authority, too, on those kind of things when they see that.
    Mr. Davis. Well, thank you for that suggestion.
    And I just, again, want to say thank you. I know each of 
you have worked hard on this issue.
    Phil, you have been in the room with us listening to 
Members. I truly appreciate the fact that through your 
testimony today, based upon previous suggestions and previous 
memos that have come out, that you listen to the Members.
    And that is something that I just cannot say thank you 
enough for, because our job is to address the Members' concerns 
and do it in a way that is also going to address their 
employees' concerns.
    I look out in the audience, and raise your hand if you are 
a shared employee. I hope each and every one of you understand 
that your Member's concerns were heard.
    And I look out and I see one of my shared employees sitting 
here watching this, this hearing. Obviously, this is of concern 
to those who were already at that status.
    But please understand, we have to do a better job of 
ensuring that we have better compliance, we have better 
standards, and so those of you who are working very hard as a 
shared employee right now can continue to do that job in the 
future, and not let those who aren't determine your fate, too.
    So thank you again, everyone.
    And thank you, Mr. Chairman, for the opportunity.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentlewoman from 
California, Ms. Lofgren, for a closing remark.
    Ms. Lofgren. Yes. Just a quick question, but before I do, 
you know, we have examined ways to improve the shared employee 
situation, but we really, really said there is some value to it 
as well, because if you have to hire in each office a 
specialist on IT, that doesn't make a lot of sense.
    So having some shared expertise, whether it is located in 
the CAO's office, or whether it is shared employees, does make 
sense. We just need to make sure that the protections are in 
place, that there is no risk to our security system or to any 
of the requirements that are--we have adopted in the House.
    In the June 2017 memo outlining recommendations, there was 
a discussion that shared employees, both in finance and 
technology, do work with nongovernment-furnished equipment 
often at home, and that this could pose a risk to the House. I 
would say that that work at home is not limited to shared 
employees. I mean, full-time House employees do that as well.
    I can think of circumstances where that would pose no risk 
to the House, but you identified a potential risk to the House. 
Could you outline what that would be and what steps we should 
take to mitigate those risks?
    Mr. Kiko. Well, I just think any--you know, technically 
everybody is supposed to do work on House equipment, you know. 
If you are going to do work, you do use the VPN if you are 
supposed to communicate.
    And if you don't, you are opening yourself up, your systems 
up to people that are trying to hack in. There is a lot of 
evidence of people that are trying to use these kind of 
systems, you know. They are trying to hack in.
    Ms. Lofgren. Well, but if I can, you know, the staff, they 
work weekends, they work nights.
    Mr. Kiko. Right.
    Ms. Lofgren. You know, you are writing a speech, you are 
writing questions for the hearing tomorrow night. They are on 
their home computer helping to write--draft questions for you 
for a witness.
    Mr. Kiko. I think--yeah. I mean, I think that is very 
difficult, obviously, to enforce, but to the extent that people 
can use their own House, you know, equipment to do that, it 
reduces the risk. That is about all I can say.
    Ms. Lofgren. Well, I guess, I don't see the risk on the 
policy issues that are--I mean, each Member is going to assess 
their risk, whether the question gets out or not is a different 
issue to whether our systems have been penetrated and security 
issues posed. Am I right, Paul?
    Mr. Irving. I absolutely agree with you. There is no 
question we have to differentiate between the risk the Member 
feels, let's say, to their data versus something that is a 
violation of House policy, which may not be.
    But, again, if you are at home working on your home 
network, it is not going to be as secure as abiding by certain 
of our policies. But, no, you are absolutely correct. There is 
going to be the assumption of risk there, and that may be just 
fine for the individual Member.
    Ms. Lofgren. All right. Thank you, Mr. Chairman for 
allowing me to follow up on that.
    The Chairman. Thank you very much, Ms. Lofgren.
    And I want to thank each of you because I know how much you 
all care about the institution of the House. You want it to 
work at the best level, and we have--certainly appreciated that 
hard work that you have had.
    Again, I want to say thank you to the Ranking Member Brady 
for his work.
    And all of the staff, on both sides, have--are committed to 
getting this right.
    And I particularly, again, want to thank Mr. Davis for his 
continued work on this issue. It is a serious matter on how we 
improve the employees' safety features, let's say, particularly 
as it relates to the IT issues.
    And while I will not discuss details of an ongoing criminal 
investigation, our goal is to make sure that we secure the 
House for the future, so that nothing like that happens again.
    So with that, thank you for your attendance.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward to you and ask that you answer 
promptly if you get them so that those answers can then be made 
a part of the record.
    Without objection, this hearing is adjourned.
    [Whereupon, at 12:20 p.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    
</pre></body></html>
